                                                          Unit d tat D partm nt of tate
                                                          amI th Bro dcastinO' Board of Jovemors

                                                          Office of Jnspector General

                                                               NOV - 6 2012

MEMORANDUM

TO:            S/GAC - Mr. Eric Goosby
               FSI   - Ms. Ruth Whiteside

FROM:          OIG   ~ Harold W. Geisel ~»
SUBJECT:       Review of President's Emergency Plan for AIDS Relief (PEPFAR) Training
               (ISP-I-13-04)


Summary

        The Office oflnspector General (OIG) recommended in 2011 that the Foreign Service
Institute (FSI) develop training for Department of State (Department) and other agency personnel
on the President's Emergency Plan for AIDS Relief (PEPF AR). The recommendation was based
on problems found by inspections in the coordination and execution of PEPF AR programs
overseas. OIG committed to review this issue in the PEPF AR work plan it submitted to Congress
for FY 2012.

        FSI has successfully developed courses on how U.S. embassies can support PEPF AR and
integrate it with other assistance programs in support of overall foreign policy goals. It deals with
PEPF AR in a number of different courses rather than a single one, a strategy that helps it focus
on specific needs and issues such as policy coordination or administrative support. FSI does not,
however, include the subject adequately in its courses for ambassadors and deputy chiefs of
mission, creating a risk of insufficient oversight of this important program.

Overall Strategy for PEPF AR Training

        Rather than treat PEPF AR as a single subject, FSI addresses it in several different courses
and divisions. For example, PEPFAR is an important part of the economic training division's
course on Global Health Diplomacy and its new course on Partnership in Development and
Diplomacy. The political training division covers PEPF AR funding, monitoring, and evaluation
in two new courses: Managing Foreign Assistance Awards Overseas and Foreign Assistance
Program Monitoring and Evaluation. The management training division has developed segments
to help support staff understand how PEPFAR employees' needs may differ from those of other
embassy personnel. This approach enables FSI to provide specific, need-based training in
PEPF AR issues more effectively than trying to combine these different issues in a single course.

Training PEPFAR Coordinators to Work Successfully in Embassies

       The Department is considering hiring PEPF AR coordinators on limited, noncareer
appointments. Many are current or former USAID employees who are well acquainted with how
                           SENSITIVE BUT UN CLASSIFIED
                              SENSITIVE BUT UN CLASSIFIED

embassies function, but others are domestic public health experts or eligible family members
with little or no experience in working at an embassy overseas. The problems identified in
embassy inspections focused largely on this group. Many coordinators would have benefited
from more training in the structure of an embassy, the rules for dealing with host government
agencies, and how the different sections of a mission work together to coordinate their programs.
The Centers for Disease Control and Prevention is trying to build a cadre of overseas employees
who understand how an embassy works and the role that PEPF AR plays in overall foreign
policy. To support this initiative, FSI offers a 2-day, online course on how a diplomatic mission
functions and encourages all new PEPF AR coordinators to take it.'

Training Administrative Staff to Support PEPFAR

        Department human resources specialists, particularly overseas, are often unsure how to
classify positions for PEPF AR local staff. In many cases, their medical qualifications may not fit
the standard diplomatic templates. To remedy this issue, FSI now includes a practice exercise on
classifying PEPF AR and other public health positions in its courses on position classification.

Training Chiefs of Mission to Oversee PEPF AR

        In 2011, OIG reported that FSI was developing information on PEPF AR to be used in the
training of ambassadors and deputy chiefs of mission? This material was supposed to be made
available to all ambassadors-designate and deputy chiefs of mission assigned to PEPF AR
countries. To date, it does not appear to have taken place. The classes do not contain any
modules, exercises, information packages, or specific information on PEPF AR.

        Adding a separate module on PEPFAR to the already full agenda of these courses would
not be cost effective. Many PEPF AR issues are included in the courses' units on the oversight of
foreign assistance programs in general. Others are relevant only to those ambassadors and deputy
chiefs of mission going to countries with a PEPF AR program. A printed or electronic handbook
would provide ambassadors and deputy chiefs of mission with an adequate understanding of
their responsibilities and authorities for the oversight of this important work and its coordination
with other foreign policy goals.

Recommendation 1: The Office of the Global AIDS Coordinator, in coordination with the
Foreign Service Institute, should develop a handbook and conduct briefings on the President's
Emergency Plan for AIDS Relief for ambassadors and deputy chiefs of mission assigned to
countries with a President's Emergency Plan for AIDS Relief program. (Action: S/GAC, in
coordination with FSI)

        You should advise us on actions taken or planned on the recommendations within 30
days of the date of this memorandum. Actions taken or planned are subject to OIG followup and
reporting.




I 2011 State 00061347 made the course, PN 113: Introduction Lo Working in an Embassy, mandatory for employees

posted to an embassy for more than 30 days of temporary duty.
2 Review of PresidenL 's Emergency Plan for AIDS Relief in SmalllnvesLmenL Countries, ISP-I-II-59, August 2011 .

                                                       2
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        I would be happy to meet with you to discuss this matter fUlther, or your staff may
contact (b) (6)          Assistant Inspector General for Inspections, by email at
(b) (6)   @state.gov or by telephone on 202-663-(b) (6)


Enclosures:
       Compliance Sheet
       OIG Resolution Procedures




                                                3
                          SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


                   COMPLIANCE INFORMATION SHEET AND INSTRUCTIONS
                            FOR OIG INSPECTION REPORTS

                                           Compliance Contacts:
(b) (6)




      Office of Inspections, Office oflnspector General, U.S. Department of State, SA-39, (b) (6)

      Response Due Date: 30 days from receipt of this e-transmittal

      Below is a list of the reports and recommendations assigned to action and coordinating entities.
      Instructions on how to submit compliance updates are provided on the following pages.

      PRODUCT NAME: REVIEW OF PRESIDENT'S EMERGENCY PLAN FOR AIDS
      RELIEF (PEPFAR) TRAINING, ISP-I-13-04


      Action Entity:                               Recommendation(s):
      S/GAC                                        1



      Coordinating Entity:                         Recommendation(s):
      FSI                                          1




                                                      1
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                     Compliance Instructions for OIG Inspection Reports

Action Entities

1. Action entities should, via a record e-mail, list each recommendation by number and text
verbatim along with a detailed discussion indicating agreement or disagreement with the
recommended action for each recommendation within 30 days from the receipt of this e-
transmi ttal of the report.

       a. The record e-mail should indicate the appropriate clearances.
       b. The ACTION line should be addressed to the ISP compliance contacts on page one-
          the assigned analyst and the supervisory analyst.
       c. The SUBJECT line should include the report title and report number.
       d. The record e-mail must be tagged ASIO, and at a minimum should be captioned
          sensitive or with the overall highest classification of the applicable text or
          recommendations issued in the repOli.
       e. Action entities are reminded to properly portion mark paragraphs in classified record
          e-mails.

2. For agreement, include corrective actions taken or planned, and actual or target dates for
completion. For disagreement, action entities must include reasons for disagreement, and any
alternative proposals for corrective action.

3. Action entities should also indicate in the response that they have sought and received the
concurrence of the assigned coordinating entities.

4. If questioned or unsupported costs are identified, state the amount that is determined to be
disallowed and the plan to collect the disallowed funds. If funds put to better use are identified,
then state the amount that can be put to better use (if these amounts differ from OIO's, state the
reason).

5. Implementation of informal recommendations is expected, however, a written response is not
required.

Coordinating Entities

1. Coordinating entities are not required to initiate action on recommendations. Coordinating
entities are to be consulted by the assigned action entity for concurrence on a proposed action to
implement the recommendation.

2. However, in the event that a coordinating entity disagrees with an action entity's proposed
plan of action, the coordinating entity is encourage, but not obliged, to submit a response to 010
for consideration in 010' s analysis on whether the cited action meets the intent of the
recommendation.



                                           2
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


OIG Analysis of Response

1. If OIG concurs with a response to a recommendation, it will note, in the analysis
correspondence, that it concurs with the action entity ' s management decision. And, OIG will
indicate whether the recommendation is closed for acceptable implementation or indicate its
status as resolved/open if action is still pending and assign a follow-on suspense for a
compliance update. Implementation measures will be tracked until final action is accomplished
and the recommendation is closed.

2. IfOIG does not concur with the action office ' s proposed corrective action, or if the action
office fails to respond to a recommendation or rejects it, OIG will identify the recommendation
as unresolved . OIG will attempt to resolve the disagreement at the action office level. However,
ifOIG determines that an impasse has been reached, it will refer the matter for adjudication as
outlined in 1 FAM 056.1 , 1 FAM 053.2-2, and 1 FAM 056.2-1(1).

3. In accordance with the Inspector General Act of 1978, as amended , OIG is required to report
to Congress semiannually on April 1 and October 1 of each year, a summary of each OIG report
issued for which no management decision was made during the previous 6-month period. Heads
of agencies are required to report to Congress on significant recommendations from previous
OIG reports where final action has not been taken for more than one year from the date of
management decision, together with an explanation of delays.




                                          3
                             SENSITIVE BUT UNCLASSIFIED
